/IfFfAffiicFS

/$/ /

/cw&? 7fr/fc c&&7'
/
/1/Fffr/J/x & /?/p/>m£/y z -

*7/7fe <?&&/

&^c/?/o/y

few*/

jr/ffe cccW, S/fZ/M*#?

!Z.

C^/y

tffc/j/e

.a -

SUPERIOR COURT OF CALIFORNIA,
COUNTY OF SACRAMENTO
GORDON D SCHABER COURTHOUSE
MINUTE ORDER
DATE: 03/13/2020

TIME: 09:00:00 AM
•JUDICIAL OFFICER PRESIDING: Christopher Krueger
CLERK: G. Toda
REPORTER/ERM:
•BAILIFF/COURT ATTENDANT: N. Alvi, R. Mays

DEPT: 54

CASE NO: 34-2019-00263643-CU-PO-GDS CASE INIT.DATE: 08/27/2019
CASE TITLE: Taylor vs. Otero
CASE CATEGORY: Civil - Unlimited

EVENT TYPE: Hearing on Demurrer - Civil Law and Motion - Demurrer/JOP

APPEARANCES
Nature of Proceeding: Hearing on Demurrer
TENTATIVE RULING
Defendant Steven Otero's demurrer to Plaintiffs Complaint is SUSTAINED WITHOUT LEAVE TO
AMEND for the failure to state facts sufficient to constitute a cause of action.
Defendant's request for judicial notice filed in support of its moving papers is granted.
Plaintiff filed this lawsuit on August 27, 2019, premised upon Defendant's representation of him in
Criminal Case No. C1522785 in Santa Clara County Superior Court. Defendant was appointed as
Plaintiffs defense counsel at his November 10, 2015 arraignment, and Defendant represented Plaintiff
for approximately eight months until the court granted Plaintiffs application to remove Defendant as
counsel on July 7, 2016.
The prosecution of the underlying criminal case resulted in a no contest plea to one misdemeanor count
of violating Penal Code section 417, subdivision (a)(1) (brandishing a weapon). Plaintiff was represented
by other counsel at the time of his plea. Following the termination of Defendant's representation, Plaintiff
filed several appeals and petitions concerning his criminal case, which have been unsuccessful. On
January 17, 2020, the Appellate Division of the Superior Court of Santa Clara issued an order affirming
Plaintiffs conviction. (See Def.'s Req. for Judicial Not., Ex. F.) The Appellate Division independently
"found no reasonably arguable issues."
Plaintiff alleges in the Complaint three causes of action arising out of Defendant's representation of him
in the criminal case: 1) professional negligence, 2) general negligence, and 3) breach of fiduciary duty.
All three causes of action are based upon the same general allegations that Defendant: failed to file
several motions Plaintiff believed should have been filed, failed to keep Plaintiff informed (or meet with
him) to discuss the case, rejected certain facts Plaintiff presented him, and raised his voice at Plaintiff.
(Compl. at p. 1, 3, 4.)
Defendant demurs to the Complaint in its entirety on the grounds that it fails to state facts sufficient to

DATE: 03/13/2020
DEPT: 54

MINUTE ORDER

Page 1
Calendar No.

CASE TITLE: Taylor vs. Otero

CASE NO: 34-2019-00263643-CU-PO-GDS

-constitute a cause of action because Plaintiff has not alleged his factual innoeence and cannot because
he has not received postconviction relief.
"When a former criminal defendant sues his or her attorney for legal malpractice resulting in conviction,
the former defendant's actual innocence of the underlying criminal charges is a necessary
.element of the cause of action. (Wiley [v. County of San Diego (1998) 19 Cal.4th 532].) Moreover, the
'plaintiff must obtain postconviction relief in the form of a final disposition of the underlying criminal
case-for example, by acquittal after retrial, reversal on appeal with directions to dismiss the charges,
reversal followed by the People's refusal to continue the prosecution, or a grant of habeas corpus
relief-as a prerequisite to proving actual innocence in a malpractice action against former criminal
defense counsel.' (Cosica [v. McKenna & Cuneo (2001) 25 Cal.4th 1194, 1205].)" (Khodayari v.
Mashburn (2011) 200 Cal.App.4th 1184, 1189 [emphasis added].) Further, the "actual innocence
requirement" applies not only to causes of action for professional negligence but any others based upon
the same primaiy right, i.e., the right to competent legal representation, regardless of how the causes of
action are labeled. (Id. at p. 1190.)
Here too, each of Plaintiff's causes of action is premised upon allegations of legal malpractice.
Accordingly, the actual innocence requirement applies.
Since Plaintiff has not alleged his actual innocence, Defendant's demurrer is sustained. Moreover,
because Plaintiff has not shown a reasonable possibility exists that he can cure the defect by
amendment, the demurrer is sustained without leave to amend. Although Plaintiff states in his opposition
that he has requested the appellate division vacate its January 17, 2020 order affirming his conviction,
he does not contest the records of the underlying criminal proceeding, of which the Court took judicial
notice, that show he has not obtained postconviction relief.
Defendant's counsel shall prepare an order for the Court's signature pursuant to California Rules of
Court, rule 3.1312.
COURT RULING
There being no request for oral argument, the Court affirmed the tentative ruling.

DATE: 03/13/2020
DEPT: 54

MINUTE ORDER

Page 2
Calendar No.

IN THE

Court of Appeal. Third Appellate District
Andrea K. Wallin-Rohmann. Clerk
Electronically FILED on 8/14/2020 by K. Peterson. Deputy Clerk

Court of Appeal of tJe S>tate of California
IN AND FOR THE

THIRD APPELLATE DISTRICT

KENT TAYLOR,
Plaintiff and Appellant,
v.
STEVEN OTERO,
Defendant and Respondent.

C092239
Sacramento County
No. 34201900263643CUPOGDS

BY THE COURT:
The court examined the notice of appeal and determined that the order appealed
from is nonappealable. Therefore, the appeal filed on June 12, 2020, is dismissed.
(Youngblood v. Board of Supervisors (1978) 22 Cal.3d 644, 651.)

cc: See Mailing List

SUPREME COURT

NOV 1 8 2020
Court of Appeal, Third Appellate District - No. C092239
Jorge Navarrete Clerk

S264300
Deputy

IN THE SUPREME COURT OF CALIFORNIA
En Banc

KENT TAYLOR, Plaintiff and Appellant,
v.
STEVEN OTERO, Defendant and Respondent.

The petition for review is denied.

CANTI l-SAKAU YE
ChiefJustice

